No.

 

 

IN THE

Supreme Court of the United States

CJ CHEILJEDANG CorpP., CJ AMERICA, INC., PT.
CHEILJEDANG INDONESIA, PETITIONERS,

v.

INTERNATIONAL TRADE COMMISSION, AJINOMOTO Co.,
Inc., AJINOMOTO ANIMAL NUTRITION
NORTH AMERICA, INC.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,982 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 24, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
